   AUDIT REPORT
U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
  North Carolina, Wildlife
Resources Commission, from
    July 1, 2001, through
        June 30, 2003




 Report No. R-GR-FWS-0004-2004

                      March 2005
                  United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                         External Audits
                               12030 Sunrise Valley Drive, Suite 230
                                      Reston, Virginia 20191


                                                                                  March 31, 2005

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andy Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of North Carolina, Wildlife Resources Commission,
           from July 1, 2001, through June 30, 2003 (No. R-GR-FWS-0004-2004)


        This report presents the results of our audit of costs claimed by the State of North
Carolina, Wildlife Resources Commission (Commission), under Federal Assistance grants from
the U.S. Fish and Wildlife Service (FWS). The audit included claims that totaled approximately
$22.9 million on FWS grants that were open during the State’s fiscal years ended June 30, 2002
and 2003 (see Appendix 1). The audit also covered the Commission’s compliance with certain
laws, regulations, and FWS guidelines, including those related to the collection and use of State
hunting and fishing license revenues and the reporting of program income.

       We found the Commission underreported program income of $2,825,535 and
overcharged the FWS on its Sport Fish and Wildlife Restoration grants by approximately
$928,000. We also identified minor issues, which the Commission has already corrected or is
planning to correct.

       FWS Region 4 responded to a draft of this report on November 9, 2004, and included the
Commission’s unsigned and undated response. The FWS response principally addressed the
finding on program income, stating that the FWS and the Commission disagree with the finding
“while concurring with all other findings” in the report. We summarized the FWS and
Commission responses after the recommendations and added our comments regarding the
responses. The status of the recommendations is in Appendix 3.

        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by July 1, 2005. Your response
should include information requested in Appendix 3. If you have any questions regarding this
report, please contact me at (703) 487-5345 or Mr. Steven Moberly, Audit Team Leader, at
(916) 978-5650.

cc:   Regional Director, Region 4
       U.S. Fish and Wildlife Service




                                              2
                                                    Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Scope, Objective, and Methodology
We performed our audit at North Carolina’s Wildlife Resources Commission (Commission)
headquarters in Raleigh, North Carolina. The audit work at the Commission included claims that
totaled approximately $22.9 million on 32 FWS grants that were open during State fiscal years
(SFYs) ended June 30, 2002 and 2003 (see Appendix 1). We also visited two fish hatcheries,
several wildlife management areas, wildlife management units, research stations, and boating
access areas (see Appendix 2). The objective of our audit was to evaluate:

                ¾ the adequacy of the Commission’s accounting system and related internal
                  controls;
                ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                  Federal Assistance grant agreements with FWS;
                ¾ the adequacy and reliability of the Commission’s hunting and fishing license fee
                  collection, certification, and disbursement processes;
                ¾ the adequacy of the Commission’s asset management system and related internal
                  controls with regard to purchasing, control, and disposal; and
                ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
                  requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Commission to the grants; interviews with employees to ensure that personnel costs charged to
the grants were supportable; and a review of the Commission’s use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. We did not
evaluate the economy, efficiency, or effectiveness of the Commission’s operations.




1
    As amended, 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively




                                                               3
Prior Audit Coverage
On May 31, 2000, we issued audit report No. 00-E-447, “U.S. Fish and Wildlife Service Federal
Aid Program Grants and Payments Awarded to the State of North Carolina, Department of the
Environment, Health and Natural Resources, Wildlife Resources Commission, for Fiscal Years
Ended June 30, 1996, and 1997.” The State Auditor also issued Single Audit reports on the State
of North Carolina for SFYs 2002 and 2003, but the Commission was not included as a major
program in these audits.

We reviewed these reports and followed up on all significant findings that related to the
Commission and its financial management system to determine whether they had been resolved
prior to our review. During the conduct of our field work, we confirmed that all prior findings
relating to the Commission had been resolved.




                                               4
                                      Results of Audit

Our review found that:

            ¾ The Commission’s accounting system and related internal controls adequately and
              accurately accounted for grant and license fee receipts and disbursements.
            ¾ Direct and indirect costs claimed under the Federal Assistance grant agreements
              with FWS were adequately recorded and supported.
            ¾ The asset management system accurately identified and tracked personal property
              with regard to acquisition, maintenance, control, and disposal.

However, we also identified:

       A.      Underreported program income of $2,825,535
       B.      Duplicate claims for Social Security and Medicare taxes of $928,000
       C.      Internal control weaknesses related to physical inventories, overtime, and land
               records
       D.      Other matters on which the Commission is in the process of taking actions to
               correct


A. Underreported Program Income of $2,825,535

During SFYs 2002 and 2003, the Commission earned $3,428,496 in revenues generated on all of
its State game lands. The Commission identified some revenues as program income and
reported them on its respective Financial Status Reports (SF-269s) but did not report $2,825,535
in program income generated on State game lands. Although Federal Assistance Grants
W-57-27 and W-57-28 provided Federal Assistance funding to support the operation and
maintenance (including a timber management component) of all State game lands, the
Commission did not deduct as program income all of the revenues generated from timber and
pine straw sales occurring on these lands from the total outlays in order to report net grant costs.
Instead, the Commission deducted only the revenues received from sales associated with State
game lands acquired with Federal Assistance funds. In addition, the Commission did not
estimate and report the full amount of program income anticipated from these sales at the time it
applied for its operations and maintenance Grants W-57-27 and W-57-28. During SFYs 2002
and 2003, the Commission collected $3,428,496 from these timber and pine straw sales and
credited Grants W-57-27 and W-57-28 with program income of $602,961. As such, the
Commission underreported program income associated with these grants by $2,825,535 during
the period.

Title 43 CFR § 12.65(b) of the Code of Federal Regulations state, “Program income means gross
income received by the grantee or subgrantee directly generated by a grant supported activity, or
earned only as a result of the grant agreement during the grant period.” Also, 43 CFR § 12.65(g)
states: “Program income shall be deducted from outlays which may be both Federal and




                                                 5
nonfederal . . . unless the Federal agency regulations or the grant agreement specify another
alternative (or a combination of the alternatives).” Finally, 43 CFR §§ 12.65 (g) (1) and (2)
state:

       Ordinarily program income shall be deducted from total allowable costs to
       determine the net allowable costs. Program income shall be used for current costs
       unless the Federal agency authorizes otherwise. Program income which the
       grantee did not anticipate at the time of the award shall be used to reduce the
       Federal agency and grantee contributions rather than to increase the funds
       committed to the project. . . . When authorized, program income may be added to
       the funds committed to the grant agreement by the Federal agency and the
       grantee. The program income shall be used for the purposes and under the
       conditions of the grant agreement.

Commission staff relied on verbal guidance from FWS Region 4 for their accounting treatment
of program income generated from game lands that were not obtained with Federal Assistance
funds. Because this program income was not reported, FWS did not know the magnitude of the
revenue. Furthermore, FWS did not have the opportunity to authorize in advance whether
program income should be used to reduce program outlays or to enhance the grant’s program
objectives.

       Recommendations
       We recommend that FWS:

       1. Resolve the $2,825,535 in underreported program income.

       2. Require the Commission to identify estimated timber and pine straw sales revenues in
          future Applications for Federal Assistance and report actual revenues and program
          income on the applicable Financial Status Report.

       Commission Response
       The Commission stated that it had relied upon written guidance from the “Federal Aid
       Manual” citing language that states in part that “When products are sold….such as
       timber….the income must be credited if the land was acquired with Federal Aid funds.”
       The Commission further stated that it did not receive written guidance that “program
       income is also derived from lands managed with Federal assistance funds” until
       March 11, 2004. As such, the Commission believes that it “…should not be made to
       comply with this clarification in policy retroactively.”

       Finally, the Commission stated that it believes that program income should be reported
       only if the revenues have resulted directly from a grant supported activity, stating that the
       Commission’s cost center structure allows them to charge costs for grant supported
       activities, which directly produce revenues on lands purchased in part with Federal funds
       while charging all other grant supported activities to State accounts.




                                                 6
       FWS Response
       FWS disagreed with the finding and reiterated the Commission’s position that the State’s
       accounting system and cost centers can “clearly identify grant activities which generate
       timber revenue.” FWS stated that the “State has separate accounting codes (#3108 and
       #3106) for timber management on Federal lands and (#8730 and #8733) for State lands.”
       FWS stated further that “It is our interpretation that timber revenue generated on North
       Carolina WMAs is not grant supported and therefore, not program income.”

       Office of Inspector General Comments
       We believe that the main factors used to determine if revenues should be reported as
       program income are whether the Commission received an operation and maintenance
       grant for its Wildlife Management Areas and whether any of the other directly supported
       grant funded activities contribute to improving timber yield or timber health on these
       lands. The March 11, 2004 Director’s Order No.168 states, “Income generated from the
       harvest of assets that contribute to grant objectives on land purchased or managed with
       Federal Assistance funds (e.g., timber revenue,…)” should be treated as program income.
       We do not believe that the Director’s Order represents a new policy or a change in policy,
       but simply provides guidance on applying the current regulations. We believe that FWS
       should clarify to the Commission that program income from timber sales can be derived
       from any Wildlife Management Area regardless of its acquisition funding source, because
       it (i.e. program income) is incidental to accepted wildlife management practices on lands
       purchased or managed with Federal Assistance funds. FWS should address the finding
       and recommendations in its corrective action plan.

B. Duplicate Claims for Social Security and Medicare Taxes

We questioned costs totaling $928,000 for duplicate claims for Social Security and Medicare
taxes.

In January 2000, the Commission began using its new Federal Aid and Management Reporting
System (FAMRS). FAMRS was developed to combine various data elements (accounting codes
and cost structures) and use a uniform process to ensure accurate and consistent allocation of
expenditures to Federal grants and allow Federal funds to be drawn down (reimbursed to the
State) after the cost was incurred.

When the Commission developed and implemented FAMRS, it created an interface with the
State’s central payroll system and created computer coding to calculate an hourly employee pay
rate based on the payroll interface, FAMRS system calculations, and matching rate tables. This
hourly employee pay rate was then used to allocate labor costs to the Federal grants that the
employee worked on during the month, based on the following formula: the employee’s gross
pay (payroll interface) plus the retirement match (payroll interface), the calculation for Old Age
and Survivors Disability Insurance (OASDI) and Medicare match, the employer match for health
benefits (rate table), and other payroll expenses. FAMRS used the formula to derive the total




                                                7
payroll expenses, multiplied the total payroll expenses by 12, and then divided these amounts by
the standard hours of pay (2,080) for the fiscal year. The resulting hourly rate was multiplied by
the number of hours the employee worked on each grant to arrive at the labor expenditure
charged to the grant and to draw down Federal funds against the grant.

We found, however, that when Commission staff developed the FAMRS’ calculation for the
OASDI and Medicare match, they also included an additional system calculation for Federal
Insurance Contributions Act (FICA) expenses, which resulted in a doubling of the match
(7.65 percent) for Social Security and Medicare costs. This duplicate calculation of Social
Security and Medicare costs occurred on all direct labor associated with Commission grants
since January 2000.

Commission staff made an unintentional mistake when developing FAMRS. Specifically, a
programming error occurred because Commission staff did not recognize that FICA was the
same as OASDI plus Medicare. We estimated that during SFYs 2002 and 2003, the Commission
overcharged FWS on its Sport Fish and Wildlife Restoration grants by approximately $928,000.

       Recommendations
       We recommend that FWS:

       1. Resolve the $928,000 in claims made by the Commission for the duplication of Social
          Security and Medicare costs for SFYs 2002 and 2003.

       2. Require the Commission to identify and repay the duplicate claims for Social Security
          and Medicare costs for SFYs 2000, 2001, and 2004.

       3. Ensure that the Commission changes FAMRS to eliminate the duplicate calculation
          for Social Security and Medicare costs.

       Commission Response
       The Commission did not comment on the finding and recommendations.

       FWS Response
       FWS did not specifically address this finding and the three recommendations except to
       state that “the Service disagrees with finding A while concurring with all other findings.”

       Office of Inspector General Comments
       Since neither the Commission nor FWS specifically addressed the finding and
       recommendations, we consider the finding unresolved and the recommendations not
       implemented. FWS should address the finding and recommendations in its corrective
       action plan.




                                                8
C. Internal Controls
During our site visits, we identified internal control weaknesses and made suggestions for
improvements. We made suggestions regarding the separation of duties between the person
taking the annual physical inventories of equipment and the person responsible for the
equipment, the elimination of the potential to charge Federal Assistance grants for labor costs of
employees who work overtime but do not get paid for it because they are exempt under the Fair
Labor Standards Act (FLSA), and the identification in the land records of those lands that were
acquired with Federal Assistance funds or license revenues. During our May 27, 2004 exit
conference, Commission staff stated they would make improvements to address these
deficiencies.

       Recommendations
       We recommend that FWS ensure that the Commission completes the following internal
       control improvements:

       1. Separate the duties of personnel taking the annual fixed asset property inventory from
          the person responsible for the property.

       2. Eliminate the potential of overcharges to Federal grants for FLSA-exempt employees
          working unpaid overtime.

       3. Expand the official land management records to identify those lands acquired with
          Federal Assistance funds and those acquired with license revenues.

       Commission Response
       The Commission did not comment on the finding and recommendations.

       FWS Response
       FWS did not specifically address this finding and the three recommendations except to
       state that “the Service disagrees with finding A while concurring with all other findings.”

       Office of Inspector General Comments
       Since neither the Commission nor FWS specifically addressed the finding and
       recommendations, we consider the finding unresolved and the recommendations not
       implemented. FWS should address the finding and recommendations in the corrective
       action plan.




                                                9
D. Other Matters
The following issues were identified and brought to the Commission’s attention during the audit.
Commission staff took prompt action to address these issues prior to the completion of our
fieldwork.

         -- The Commission initiated action for a legislative change to ensure that the State’s
assent legislation conformed to the Federal requirement that hunting and fishing license revenues
could be used only to administer the State’s fish and wildlife programs. The State’s legislation
did not specifically prohibit any agency other than the Commission from using license fees for
the administration of the State’s fish and wildlife programs. We did not, however, identify any
instances where the State used license fees during our audit period for anything other than its fish
and wildlife programs.

        -- The Commission revised its indirect cost accounting procedures to ensure that it used
only its allocable portion of the State’s Fish and Wildlife Restoration apportionments to compute
the amount of grant funds that could be used for statewide central service costs. The Restoration
Acts limit the amount of Federal Assistance funds that may be used for the cost of services
provided by State central service activities outside the state’s fish and game department to 3
percent of the annual apportionment under each act. Previously, the Commission was using the
State’s total apportionment (which includes the funds allocated to the Division of Marine
Fisheries) to compute the three percent limitation. Because the Commission did not exceed the
three percent limitation of its allocable share of the apportionment during the period of our audit,
no questioned costs resulted.

Since the Commission took action while we were on site to address and correct the deficiencies,
we have made no recommendations concerning these two issues.




                                                10
                                                        Appendix 1

NORTH CAROLINA WILDLIFE RESOURCES
       COMMISSION FINANCIAL
   SUMMARY OF REVIEW COVERAGE
  JULY 1, 2001, THROUGH JUNE 30, 2003
                              Claimed      Questioned
Grant Number     Amount
                               Costs         Costs
  F-22-26        $457,000      $423,191     $16,095
  F-22-27          392,000       478,163     16,602
  F-23-26          270,000       261,168     13,162
  F-23-27          261,000       260,365     14,188
  F-24-26          477,000       442,859     23,822
  F-24-27          515,000       467,637     24,133
  F-26-17          966,667     1,126,177     43,071
  F-26-18          934,410     1,026,730     33,182
  F-35-14          535,176       556,067     27,124
  F-35-15          624,708       558,252     29,406
  F-57-8            20,000        20,000         -0-
  F-58-7           200,000        46,307         -0-
  F-58-8           355,000       207,279         -0-
  F-63-6           380,000       377,913     24,399
  F-63-7           375,000       415,578     25,854
  F-65-5           250,000       289,634      8,965
  F-65-6           250,000       321,962      9,794
  F-68-3           150,669       150,665         14
  F-68-4           150,668       150,669         -0-
  F-76-1            70,000        69,440      3,357
  F-76-2            70,000        70,827      3,282
  W-1-31         1,180,000     1,457,472     55,446
  W-1-32         1,149,021     1,454,164     51,910
  W-57-27        4,119,343     5,075,472    227,911
  W-57-28        4,133,333     5,680,462    235,508
  W-59-1           567,500       488,260      1,503
  W-60-1           559,100       230,368         74
  W-61-1           300,000       348,883     11,893
  W-61-2           300,000       450,641     27,107
  W-62-1           369,920        69,549         24
  W-63-1           300,000        22,739        182
  W-64-1           589,268          -0-        -0-
   TOTAL       $21,271,783   $22,998,893   $928,008




                       11
                                                            Appendix 2

NORTH CAROLINA WILDLIFE RESOURES COMMISSION
                SITES VISITED

                 Alamance Depot (Inland Fisheries)

                  Cedar Point Boating Access Area

       Cumberland County Wildlife Club (Hunter Education)

                  Bell’s Church Public Fishing Area

                   Burgaw (Hunter Education)

                   Butner Depot (Game Land)

                Farrington Point Boating Access Area

                Holly Shelter Depot (Game Land)

                   Marion Depot (Game Land)

                       Marion Fish Hatchery

                 Morehead City Boating Access Area

                   Morganton Depot(Game Land)

                Pisgah Center for Wildlife Education

                 Suggs Mill Pond (Game Land)

                   Vanceboro (Hunter Education)

                        Watha Fish Hatchery




                               12
                                                                                      Appendix 3

       NORTH CAROLINA WILDLIFE RESOURCES COMMISSION
                 STATUS OF AUDIT FINDINGS
                  AND RECOMMENDATIONS

  Recommendation                   Status                       Action Required
A.1, A.2                   Finding Unresolved and   Reconsider the finding and provide a
                           Recommendations Not      corrective action plan that identifies the
                           Implemented.             actions taken or planned and the target date
                                                    and official responsible for implementation
                                                    of each recommendation, or provide an
                                                    alternative solution. The unimplemented
                                                    recommendations remaining at the end of 90
                                                    days (after July 1, 2005) will be referred to
                                                    the Assistant Secretary for Policy
                                                    Management and Budget for resolution
                                                    and/or tracking of implementation.


B.1, B.2, B.3, C.1, C.2,   Finding Unresolved and   Provide a corrective action plan that
C.3                        Recommendations Not      identifies the actions taken or planned and
                           Implemented.             target date and official responsible for
                                                    implementation of each recommendation, or
                                                    provide an alternative solution. The
                                                    unimplemented recommendations remaining
                                                    at the end of 90 days (after July 1, 2005) will
                                                    be referred to the Assistant Secretary for
                                                    Policy Management and Budget for
                                                    resolution and/or tracking of
                                                    implementation.




                                             13
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
